No. XXX
In The

Supreme Court of the United States
⎯⎯⎯⎯⎯  ⎯⎯⎯⎯⎯
WISCONSIN DEPARTMENT OF REVENUE, et al.,
Petitioners,
v.
UNION PACIFIC RAILROAD COMPANY,
Respondent.
⎯⎯⎯⎯⎯  ⎯⎯⎯⎯⎯

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
⎯⎯⎯⎯⎯  ⎯⎯⎯⎯⎯
APPLICATION TO THE HONORABLE BRETT M. KAVANAUGH,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE SEVENTH CIRCUIT
⎯⎯⎯⎯⎯  ⎯⎯⎯⎯⎯
JOSHUA L. KAUL
Attorney General of Wisconsin
BRIAN P. KEENAN*
Assistant Attorney General
Counsel for Petitioners
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-0020
(608) 267-2223 (Fax)
keenanbp@doj.state.wi.us
*Counsel of Record

Pursuant to this Court’s Rule 13.5 and 28 U.S.C. § 2101(c), Petitioners
Wisconsin Department of Revenue and Peter Barca, in his official capacity as the
Secretary of the Wisconsin Department of Revenue, request a 21-day extension of
time, to and including January 27, 2020, to file their petition for certiorari in this
Court. In support of the application, Petitioners state as follows:
1.

The United States Court of Appeals for the Seventh Circuit issued a

panel decision on October 7, 2019. The decision is attached. The Seventh Circuit also
entered judgment on October 7, 2019. Absent an extension of time, the petition for a
writ of certiorari would be due on January 6, 2020, as the 90th day falls on Sunday
January 5, 2020 . Petitioners file this application at least ten days before the petition’s
due date. See Sup. Ct. R. 13.5.
2.

The Court to which certiorari would be directed is the United States

Court of Appeals for the Seventh Circuit. This Court would have jurisdiction to review
the judgment of the United States Court of Appeals for the Seventh Circuit under
28 U.S.C. § 1254.
3.

This case presents an important question about the interpretation of

Section 306 of the Railroad Revitalization and Regulatory Reform Act of 1976
(“4-R Act”), codified at 49 U.S.C. § 11501(b)(4). Subsections (b)(1)–(3) provide specific
requirements for state property taxes on railroads, while subsection (b)(4) prohibits
states from “[i]mpos[ing] another tax that discriminates against” railroads. 49 U.S.C.
§ 11501(b)(4). This Court previously addressed subsection (b)(4) in Department of
Revenue of Oregon v. ACF Industries, Inc., 510 U.S. 332 (1994). That case left open

the question of whether subsection (b)(4) prohibited a tax system “in which the
railroads—either alone or as part of some isolated and targeted group—are the only
commercial entities subject to an ad valorem property tax.” Id. at 346. The Seventh
Circuit held that subsection (b)(4) did prohibit a tax of this sort, and that Wisconsin
violated subsection (b)(4) by taxing railroads’ intangible personal property while
exempting other taxpayers’ intangible personal property. The petition will present
the question of whether subsection (b)(4) applies to property taxes and, if it does,
whether Wisconsin’s tax system violates the narrow exception left open in ACF
Industries.
4.

Petitioners seek a 21-day extension for two reasons: other cases

requiring the attention of counsel and the lack of availability of those at the Wisconsin
Department of Revenue and the Wisconsin Department of Justice to adequately
review the petition before it is filed.
5.

Counsel had a brief due on December 16, 2019, in Skindzelewski v.

Jones, No. 2018AP623 (Wis. Sup. Ct.). Counsel recently filed a brief on December 13,
2019 in Wisconsin Department of Revenue v. Deere & Co., No. 19-cv-2596 (Wis. Cir.
Ct. Dane Cty.). These briefs have interfered with counsel’s ability to research and
prepare a petition for review that could be adequately reviewed by the Wisconsin
Department of Revenue and others within the Wisconsin Department of Justice
before the holiday period.

-2-

6.

The current due date follows shortly after the Christmas and New Year’s

period. Wisconsin recognizes Christmas Eve, Christmas Day, New Year’s Eve, and
New Year’s Day as holidays for state employees. Counsel will be traveling and out of
the office for several days before and after Christmas. The same is true for those at
the Wisconsin Department of Revenue and the Wisconsin Department of Justice who
need to review and approve of the petition before filing.
7.

Counsel will likely be unable to complete a draft of the petition with

sufficient time for the Department of Revenue and Department of Justice to
adequately review the petition before it would need to be filed on January 6, 2020.
8.

Therefore, Petitioners request a 21-day extension of time so that counsel

and the Department of Revenue can devote adequate time and attention to the
petition. No meaningful prejudice would arise from the requested extension. I have
contacted counsel for the respondent, Union Pacific Railroad Company, and
respondent does not object to the request for an extension.
Dated this 18th day of December, 2019.
Respectfully submitted,
JOSHUA L. KAUL
Attorney General of Wisconsin
s/ Brian P. Keenan
BRIAN P. KEENAN*
Assistant Attorney General
State Bar #1056525
Attorneys for Petitioners
-3-

Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-0020
(608) 267-2223 (Fax)
keenanbp@doj.state.wi.us
*Counsel of Record

-4-

